HHS/OIG, Audit,"Review of Title II of the Ryan White Comprehensive AIDS Resources Emergency Act at the Florida
Department of Health,"(A-04-03-08014)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Title II of the Ryan White Comprehensive AIDS Resources Emergency Act at the Florida Department of Health," (A-04-03-08014)
June 30, 2004
Complete
Text of Report is available in 492 PDF format (392 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine if the Health Department:  met key service delivery
performance goals and complied with applicable program and cost requirements; used cost-savings strategies when purchasing
AIDS Drug Assistance Program (ADAP) drugs.  The Health Department exceeded its service delivery performance goals
in terms of the number of clients served; complied with program requirements regarding non-Federal matching funds, previous
years expenditures, spending caps, and public involvement; and used cost-savings strategies to purchase ADAP drugs at
discounted prices.